<html>
<title> - MARKUP ON COMMITTEE RESOLUTION 114, H.R. 5160, H.R. 4511, H.R. 4092, H.R. 4733, H.R. 5227, AND H.R. 4734</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 MARKUP ON COMMITTEE RESOLUTION 114, H.R. 5160, H.R. 4511, H.R. 4092, 
                  H.R. 4733, H.R. 5227, AND H.R. 4734

=======================================================================

                                 MARKUP

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                  Held in Washington, DC, May 17, 2016

                               __________

      Printed for the use of the Committee on House Administration
      
      
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]     


                       Available on the Internet
                             www.fdsys.gov
                             
                             
                              ____________
                              
                            
                              
                      U.S. GOVERNMENT PUBLISHING OFFICE 
21-309                          WASHINGTON : 2016                      
                             
_________________________________________________________________________________________                             
 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1f786f705f7c6a6c6b777a736f317c707231">[email&#160;protected]</a>  
                           
                             
                             
                             
                             
                             
                   COMMITTEE ON HOUSE ADMINISTRATION

               CANDICE S. MILLER, Michigan, Chairman

ROBERT A. BRADY, Pennsylvania, Ranking Minority Membersissippi
ZOE LOFGREN, California              RICHARD NUGENT, Florida
JUAN VARGAS, California              RODNEY DAVIS, Illinois
                                     BARBARA COMSTOCK, Virginia
                                     MARK WALKER, North Carolina

                           
                           Professional Staff

                        Sean Moran, Staff Director,    
                        Jamie Fleet, Minority Staff Director

 
 MARKUP ON COMMITTEE RESOLUTION 114, H.R. 5160, H.R. 4511, H.R. 4092, 
                  H.R. 4733, H.R. 5227, AND H.R. 4734

                              ----------                             


                         TUESDAY, MAY 17, 2016

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:48 a.m., in Room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
[chairman of the Committee] presiding.
    Present: Representatives Miller, Harper, Nugent, Davis, 
Comstock, Brady, Lofgren, and Vargas.
    Staff Present: Sean Moran, Staff Director; John Clocker, 
Deputy Staff Director; Katie Patru, Deputy Staff Director; Erin 
McCracken, Communications Director; Brad Walvort, Professional 
Staff Member; Cole Felder, Legal Counsel; C. Maggie Moore, 
Legislative Clerk; Tim Sullivan, Staff Assistant; Jamie Fleet, 
Minority Staff Director; Matt Pinkus, Minority Senior Policy 
Advisor; Khalil Abboud, Minority Deputy Staff Director/Director 
of Legislative Operations; Mike Harrison, Minority Chief 
Counsel.
    The Chairman. I call to order the Committee on House 
Administration for today's Committee meeting. A quorum is 
present, so we can proceed here.
    The meeting record will remain open for 5 legislative days 
so that members might submit any material that they wish to be 
included therein.
    The Chairman. There are a numbers of items that we have on 
our docket today. Actually, I think we have eight different 
items. We are going to be talking about transferring the House 
Safe Program; updating Voucher Documentation Standards; 
updating the National Gallery of Art boundaries; the Gold Star 
Families Voices Act; reauthorizing the sound and recording film 
preservation programs of the Library of Congress, among other 
items; permitting the United States Capitol Police to accept 
certain property from other Federal agencies and to dispose of 
certain property in its possession; the Library Modernization 
Act; and amending the Federal Election Campaign Act of 1971.
    Our Committee is charged with oversight of the operations 
of the House, which includes the responsibility to ensure that 
the institution remains open and accountable to the American 
taxpayers. Additionally, of course, we strive to modernize the 
House where possible. This is not a static environment; it is 
quite dynamic actually, which requires us to constantly review 
and to revise our policies to best meet the unique needs of the 
legislative branch. As we say, the largest room is always the 
room for improvement.
    Over the past year, the Members of our Committee have 
worked in conjunction with the House Committee on Ethics, with 
House Leadership, and our support offices on a number of 
updates to strengthen and modernize the regulations governing 
official expenses. These rules, which are periodically updated 
in the Member Handbook, exist to ensure that Members operate 
within the framework of established House rules and guidelines.
    So our first resolution today transfers the management of 
the House Safe Program from the Chief Administrative Officer to 
the House Sergeant at Arms. Members, of course, can request a 
safe for their office and now the Sergeant at Arms will control 
the oversight of the combination access and inventory.
    The second Committee Resolution is to approve updates to 
the House's Voucher Documentation Standards. These codified 
standards, which incorporate input from the House CAO, the 
House Inspector General, and the Member office financial points 
of contacts, were finalized after a complete review of existing 
Vouchers Standards and practices. They update existing 
regulations, they reflect current practice, and they remove 
outdated terminology. The objective here is to ensure that the 
required documentation is provided when spending taxpayers' 
dollars.
    The next step is ensuring that all offices understand these 
updates. So after passage, all of the CAO's financial personnel 
will receive training to guarantee that these newly implemented 
standards are followed. Additionally, we will be hosting 
educational briefings and trainings for the financial 
administrators in our Member offices, our committees, of 
course, and the House support offices.
    Next on our list of bills is legislation related to the 
National Gallery of Art. H.R. 5160 updates existing statute 
that defines the policing boundaries of the National Gallery of 
Art's buildings and grounds. The updates include the former 
Corcoran Gallery of Art's buildings, the Mellon Foundation, and 
any leased space the Gallery requires for their operations. 
This language mirrors the authority already provided for the 
Smithsonian police force.
    After that, we will take up legislation for the Gold Star 
Families Voices Act. This updates the Library of Congress 
Veterans' Oral History Project that was created by Congress in 
2000. The project's mission is to collect, preserve, and make 
accessible American war veterans' accounts of events. 
Currently, submissions are limited to firsthand veteran 
accounts.
    This piece of legislation was championed by Representative 
Chris Smith of New Jersey. This bill will allow the immediate 
family members of veterans who died as a result of their 
wartime service or were missing in action to provide stories on 
behalf of their relatives who gave their lives for their 
country. It has received the support of American Gold Star 
Mothers, Inc., which is a group of mothers who have lost a son 
or daughter in service of our great Nation.
    I think this is an important addition that will certainly 
only advance the Veterans' History Project, which marked its 
100,000th veteran account this year.
    The next bill, introduced by Ranking Member Brady, 
reauthorizes the sound recording and film preservation boards 
and foundations of the Library of Congress. H.R. 4092 extends 
the sunset dates for the Library's National Recording 
Preservation Board and the National Recording Preservation 
Foundation, as well as the National Film Preservation Board and 
National Film Preservation Foundation, through the year 2026.
    These sound recordings and films provide a tremendous 
amount of value when preserving our past, present, and future. 
These artistic works are snapshots of a generation's culture, 
ideas, dreams, and innovations that make up our Nation's 
heritage.
    Then, the next agenda item updates current U.S. Code to 
permit the U.S. Capitol Police to accept certain surplus 
property from other Federal agencies. Additionally, it allows 
them to dispose of certain property, such as unclaimed lost and 
found items, which have been left by visitors in the U.S. 
Capitol and congressional buildings. H.R. 4733, introduced, 
again, by Ranking Member Brady, will modify U.S. Code and model 
its program after the executive branch property regulations.
    Then we are going to move on to a bill introduced last week 
by myself and Ranking Member Brady, as well as our Committee's 
vice chair, Gregg Harper. H.R. 5227, the Library of Congress 
Modernization Act of 2016, grants the National Library Service 
for the Blind, under the jurisdiction of the Library of 
Congress, the ability to provide greater access to braille 
resources, specifically digital braille readers and materials. 
Increasing this access is of significant importance and a 
creative and innovative use of today's modern technology.
    Additionally, the bill authorizes the creation of the 
National Collection of Stewardship Fund intended to ease the 
challenges the Library faces with its collection and storage 
backlog of material and infrastructure needs. Existing 
appropriated funds can be allocated in order to assist with 
supplying sufficient resources for the Library's needs.
    The last item--we sort of packed in a number of them here 
today--is H.R. 4734, a bill introduced, again, by Ranking 
Member Brady, to amend the Federal Election Campaign Act of 
1971 in regard to those who might distribute campaign funds for 
a candidate's Federal election campaign.
    Under current Federal law, only the campaign treasurer is 
authorized to disburse campaign funds, and that includes 
disbursing these funds in the event the candidate should pass 
away.
    Should this bill become law, it would allow candidates 
running for Federal office the opportunity to designate an 
additional individual, separate from the campaign treasurer, 
who would be authorized to distribute campaign funds in the 
event of the death of the candidate.
    I certainly want to thank all the Members for being here 
today. A lot of different items on the agenda today, and so 
many of them, certainly in a bipartisan effort, are to ensure 
that the right policies are happening here and positively 
impact this House as an institution.
    At this time, I would like to recognize the Ranking Member, 
Mr. Brady from Pennsylvania, for his opening statement.
    Mr. Brady. Thank you, Madam Chairman. Just to say thank you 
for having this hearing and moving these bills forward.
    The Chairman. Any other Member wish to make an opening 
statement?
    Okay. I will now call before the Committee our first agenda 
item, the Committee Resolution 114 instructing the House Chief 
Administrative Officer to submit a plan for the transfer of the 
House Safe Program to be managed by the House Sergeant at Arms 
Security Office.
    Without objection, the first reading of the resolution is 
dispensed with, the resolution is considered read and open for 
amendment at any point.
    [The information follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairman. This is, as I mentioned, a commonsense 
transfer of responsibility over the management of this specific 
office equipment.
    Any comment from Mr. Brady?
    Mr. Brady. Yes, Madam Chair. I support the Committee's 
resolution. It makes sense to move jurisdiction of the Safe 
Program to the Sergeant at Arms because they are expert in 
handling sensitive classified information. I am glad that we 
could work together to bring a commonsense measure that ensures 
the continued maintenance of the Safe Program.
    Thank you.
    The Chairman. I appreciate the gentleman's comments.
    Any other Members wish to comment?
    If not, I move the Committee adopt the Committee 
Resolution. The question is on the motion to adopt the 
resolution.
    All Members who are in favor, signify by saying aye.
    Opposed, say nay.
    In the opinion of the Chair, the ayes have it, the ayes 
have it. The motion is agreed to. And without objection, the 
motion to reconsider is laid upon the table.
    Item two. I now call before the Committee our next agenda 
item, the Committee Resolution updating the Voucher 
Documentation Standards.
    Without objection, the first reading of the resolution is 
dispensed with, and the resolution is considered read and open 
for amendment at any point.
    [The information follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairman. These documentation standards have not been 
updated actually since 2010, and the updates included within 
the Committee Resolution codify these standards with the 
existing regulations, reflect current practice, and remove 
outdated terminology.
    Any comment from Mr. Brady?
    Mr. Brady. Madam Chair, I support the long overdue 
strengthening of the Voucher Documentation Standards and urge 
the adoption of the resolution.
    The Chairman. Any other Member like to offer comments or an 
amendment to the resolution?
    Mr. Davis.
    Mr. Davis. Thank you, Madam Chairman.
    Thank you to Ranking Member Brady and this entire 
Committee.
    As somebody who used to actually file the vouchers as a 
member of the congressional staff for one of our colleagues, 
these updates I think are overdue, and I think they are going 
to go a long way in ensuring that the House processes more 
closely resemble documentation standards in the private sector.
    So thank you all for your assistance. I would like to 
especially thank Ms. Lofgren for helping us go through this 
process just a few short months ago.
    I yield back.
    The Chairman. I certainly want to thank both Mr. Davis and 
Ms. Lofgren for all of the work that they did on this. It was 
many, many hours, and I think the institution will be so much 
better for it.
    I recognize the gentlelady.
    Ms. Lofgren. Just to add that it is good to see the follow-
up from the work that we did on the task force.
    And I yield back.
    The Chairman. Any other Member?
    If not, I move the Committee adopt the Committee 
Resolution. The question is on the motion to adopt the 
resolution.
    All Members in favor, signify by saying aye.
    Opposed, say nay.
    In the opinion of the Chair, the ayes have it, the ayes 
have it. The motion is agreed to. Without objection, the motion 
to reconsider is laid upon the table.
    We now call before the Committee our next agenda item, 
which is H.R. 5160, a bill to amend Title 40, United States 
Code, to include as part of the buildings and grounds of the 
National Gallery of Art any buildings and other areas within 
the boundaries of any real estate or other property interests 
acquired by the National Gallery of Art.
    Without objection, the first reading of the bill is 
dispensed with and the bill is considered read and open for 
amendment at any point.
    [The bill follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairman. The National Gallery of Art recently acquired 
new properties, and this measure updates the respective U.S. 
Code to include those properties within their policing 
boundaries.
    I recognize my Ranking Member, Mr. Brady, for any statement 
he may have.
    Mr. Brady. Thank you, Madam Chairman. I concur with your 
statement on this legislation, and I urge members to vote in 
favor of the legislation.
    The Chairman. Any other Members have comments or 
amendments?
    If not, I move the Committee favorably report the bill to 
the House. The question is on the motion.
    All Members in favor, signify by saying aye.
    Opposed, say nay.
    In the opinion of the Chair, the ayes have it, the ayes 
have it. The motion is agreed to. Without objection, the motion 
to reconsider is laid upon the table.
    I now call before the Committee our next agenda item, H.R. 
4511, Gold Star Families Voices Act.
    Without objection, the first reading of the bill is 
dispensed with, and the bill is considered read and open for 
amendment at any point.
    [The bill follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairman. Again, I believe the inclusion of these 
accounts from the loved ones of those that have given their 
lives in the service of our Nation will only enhance the 
Library's Veterans' History Project, which is a fantastic 
project, quite frankly.
    Just on a note here, on Sunday, actually, we had an event 
in my district where I was able to give a commemorative pin to 
over 300 Vietnam veterans. Really, it was one of the best 
things I think I have ever been involved in since I have been a 
Member of Congress.
    But there are two of those individuals who were a part of 
my particular videotaping that we did for the Veterans' History 
Project. One fellow in particular, who is now 82, 83 years old, 
I think he spent 5\1/2\ years in the Hanoi Hilton. There are 
123 of those guys, and John McCain, there are 123 of those 
guys. He is one of them, and he is part of my Veterans' History 
Project. I think most of the Members have done these, and it is 
a fantastic way to archive this kind of history for future 
generations, so I think this is an important part of that.
    And I would ask Mr. Brady if he has any comments.
    Mr. Brady. Yes, thank you, Madam Chair.
    One of our greatest national treasures is our veterans. I 
have over 28,000 veterans in my district, and each one of these 
veterans and their families have powerful stories that should 
be recorded for future generations. That is what this 
legislation is about, and that is why I am pleased to support 
it.
    In the 106th Congress, I was the original cosponsor of the 
Veterans' Oral History Project. The Veterans' Oral History 
Project allows for American veterans to submit their firsthand 
experiences of their service to our country through audio and 
video recordings. In addition, American veterans and the 
families of deceased veterans may still participate by 
submitting veteran memorabilia such as diaries or letters that 
the veterans may have written during wartime.
    The legislation before us would expand on that work by 
allowing the immediate family members of deceased veterans that 
died in conflict and were missing in action to submit audio-
video recordings of their second or third hand accounts of 
their family member's life as a veteran.
    I thank the Chair for considering this measure today. I 
hope that we continue to work with the Library of Congress to 
guarantee that we preserve as many of these important stories 
as possible, and I urge my colleagues to support this measure.
    The Chairman. I thank the gentleman.
    Any other Member want to offer comments or amendment?
    If not, I move the Committee favorably report the bill to 
the House. The question is on the motion.
    All Members in favor, signify by saying aye.
    Opposed, say nay.
    In the opinion of the chair, the ayes have it, the ayes 
have it. The motion is agreed to. Without objection, the motion 
to reconsider is laid upon the table.
    We now call before the Committee our next agenda item, 
which is H.R. 4092, again a measure to reauthorize the sound 
and recording film preservation programs of the Library of 
Congress, and for other purposes.
    Without objection, the first reading of the bill is 
dispensed with, and the bill is considered read and open for 
amendment at any point.
    [The bill follows:]
    [GRAPHIC] [TIFF OMITTED] T1309A.008
    
    [GRAPHIC] [TIFF OMITTED] T1309A.009
    
    The Chairman. This bill extends the sunset dates, which are 
currently set to expire at the end of the year, for the 
Library's National Recording Preservation Board and the 
National Recording Preservation Foundation, as well as the 
National Film Preservation Board and National Film Preservation 
Foundation. The measure extends each of these authorities of 
the boards and the foundations through the year 2026.
    I will note again that these boards and foundations do a 
tremendous amount of work to preserve what is considered a 
significant portion of our Nation's heritage. They seek to 
preserve these works for posterity, and I am pleased to see 
their continued function.
    I would now recognize the Ranking Member, Mr. Brady, for 
any statement he may have.
    Mr. Brady. Thank you, Madam Chair.
    Since it is my bill, I am definitely for it. I was chairman 
when we did this last time, and I was for it then too. I 
support this program that will expire September 30. With 
minimal cost to taxpayers, the Library is working with 
interested private organizations, State and local governments, 
and others in every State to identify, preserve, and make 
accessible numerous significant films and sound recordings that 
will likely otherwise be lost forever. This is a simple 
reauthorization of an important program that is working. We 
should support it.
    I yield back. Thank you.
    The Chairman. I thank the gentleman.
    Any other Member wish to offer comments or an amendment?
    If not, I move the Committee favorably report this bill to 
the House as well. The question is on the motion.
    All Members in favor of the motion, signify by saying aye.
    Opposed, say nay.
    In the opinion of the Chair, the ayes have it, the ayes 
have it. The motion is agreed to. Without objection, the motion 
to reconsider is laid upon the table.
    I now call before the Committee our next agenda item, H.R. 
4733, a bill to permit the United States Capitol Police to 
accept certain property from other Federal agencies and to 
dispose of certain property in its possession.
    Without objection, the first reading of the bill is 
dispensed with, and the bill is considered read and open for 
amendment at any point.
    [The bill follows:]
    [GRAPHIC] [TIFF OMITTED] T1309A.010
    
    [GRAPHIC] [TIFF OMITTED] T1309A.011
    
    The Chairman. This bill updates the current U.S. Code to 
allow the U.S. Capitol Police to accept certain surplus items, 
as well as to dispose of certain property, such as unclaimed 
lost-and-found items, which has been left by visitors either at 
the U.S. Capitol or congressional buildings, from the 
department's possession.
    I would recognize our Ranking Member, Mr. Brady, if he has 
any statement.
    Mr. Brady. Thank you, Madam Chairman. I appreciate your 
including this measure for consideration today.
    While the proposed legislation may not be the most serious 
problem confronting America today, it responds to a formal 
legislative request and the Committee owes the police its 
attention, and I support this bill.
    The Chairman. I thank the gentleman.
    Any other Member wish to offer an amendment or comment on 
the bill?
    Yes, the gentleman from California.
    Mr. Vargas. The only comment I would make is to thank the 
Capitol Police. I have had such great service here. I really 
appreciate the work that they do, and I hope that you take that 
back to them. Thank you.
    The Chairman. Thank you.
    I move the Committee favorably report this bill to the 
House. The question is on the motion.
    All in favor, signify by saying aye.
    Opposed, say nay.
    In the opinion of the Chair, the ayes have it, the ayes 
have it. The motion is agreed to. Without objection, the motion 
to reconsider is laid upon the table.
    I now call before the Committee our next agenda item, H.R. 
5227, the Library of Congress Modernization Act of 2016.
    Without objection, the first reading of the bill is 
dispensed with, and the bill is considered read and open for 
amendment at any point.
    [The bill follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairman. This bill provides updates to the Library's 
authorization. One wonderful aspect of this bill is that it 
paves the way for the National Library Services for the Blind 
to provide greater access to braille resources, especially 
digital braille readers and materials. Increasing this access 
to the great works housed at the Library I think is of 
significant importance and it is an innovative use of today's 
modern technology.
    The bill will also authorize the creation of a National 
Collection Stewardship Fund intended to ease the challenges the 
Library faces with its collection and storage backlog of 
material infrastructure needs. This fund should be able to be 
filled by transferring appropriated dollars from existing funds 
to assist in applying sufficient resources for Library needs.
    I recognize the Ranking Member, Mr. Brady, for any 
statement he may have.
    Mr. Brady. Thank you, Madam Chair. I was pleased to 
cosponsor your bill.
    This bill includes three of the five provisions of my H.R. 
4093 that I introduced last year at the Library's request, and 
I urge my colleagues to support it too. Since two provisions to 
H.R. 4093 did not make it into this bill, I have introduced a 
new bill carrying them and hope we will consider that bill at 
the next markup. One or both of these provisions to improve the 
Library's gift authority and revolving funds have passed before 
but has not gone the distance. I believe you should take 
another look.
    In the meantime, I strongly support this bill. Thank you 
for bringing it forward. And I yield back.
    The Chairman. I thank the gentleman. And I certainly commit 
to working with him for the other provisions that he has just 
mentioned.
    Any other Member like to offer an amendment or comment?
    If not, I move the Committee favorably report this bill to 
the House. The question is on the motion.
    All Members in favor of the motion, please signify by 
saying aye.
    Opposed, say nay.
    In the opinion of the Chair, the ayes have it, the ayes 
have it. The motion is agreed to. Without objection, the motion 
to reconsider is laid upon the table.
    We now call before the Committee our next and our final 
agenda item for the markup before we go into our hearing, and 
this is H.R. 4734, to amend the Federal Election Campaign Act 
of 1971. This bill will allow candidates running for Federal 
office the opportunity to designate an additional individual, 
separate from the campaign treasurer, who would be authorized 
to distribute campaign funds in the event of the death of the 
candidate.
    Without objection, the first reading of the bill is 
dispensed with, and the bill is considered read and open for 
amendment at any point.
    [The bill follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    The Chairman. I recognize the Ranking Member, Mr. Brady, 
for any statement that he wishes to give.
    Mr. Brady. Madam Chair, first thank you for including H.R. 
4734 among the other bills for consideration today. This is a 
bill to amend the Federal Election Campaign Act. The bill 
allows a candidate for Federal office to designate someone to 
disburse their campaign funds in the event of his or her death. 
The Federal candidate would be able to designate this person by 
filing an appropriate form with the FEC and could change the 
designee at any time.
    Our friend from North Carolina, Walter Jones, has 
championed this proposal for many years. I was pleased that he 
worked with me this year to get the measure reintroduced.
    This bill is familiar to the Committee. Should we report 
this bill favorably, it would be the fourth time it has been 
sent to the floor where it passed on three previous occasions. 
Each time the Senate declined to act on it. What they did, 
because it was such a good bill, they kept on loading other 
things into it and we couldn't get it passed. I hope the fourth 
time is a charm.
    This is a simple commonsense fix for a minor flaw in our 
campaign finance laws. It provides clear guidance to those 
charged with the financial responsibility over a candidate's 
funds while preserving the intentions of the candidate in the 
event of his or her death. I am happy to support this bill, and 
I look forward to it finally becoming law.
    Madam Chair, I had my own experience with a treasurer when 
I first got elected. We all want to have the optics right and 
put in a lawyer--no disrespect to lawyers, but lawyers are 
lawyers--or an accountant--to look good. And then after about a 
year or so I found out that my treasurer was allocating funds 
to some other people that I didn't want to have happen while I 
was still alive. Imagine what would happen if I wasn't.
    So nobody wants to really put a spouse or a family member 
or a person with the same name as the treasurer, again, because 
of the optics. This allows us to do that, and that person has 
no say whatsoever on disbursing of funds on any way, shape, or 
form while we are still alive. But in the event, unfortunately, 
of our death--which nobody gets out of this business alive, you 
know, it can happen while we are in office, and that person 
that we designate would know what charities we want to give our 
money to, what candidates we want to support, or who we may 
want to give it back.
    So I do believe this is a time that we are going to push as 
hard as we can to have the Senate hear it and try to get this 
done that benefits all of us. And thank you again for bringing 
this up.
    And I yield back.
    The Chairman. I thank the gentleman very much, and I 
certainly concur in everything that he said. I mean, if you 
think about it, a lot of these Federal candidate accounts are 
worth a lot of money and you certainly want to make sure that 
if, God forbid, something happens, that you do have a treasurer 
who is going to be able to disburse the remaining funds in a 
way that the candidate would have wanted it to go to, like you 
say, the charities that you felt strongly about or 
officeholders, et cetera.
    So I think it is a commonsense bill, although I am stunned 
to hear you say that the Senate actually loaded this thing up 
and it couldn't move. Kidding. Anyway, I certainly support this 
as well.
    Is there any other Member that wishes to--yes, Mr. Harper.
    Mr. Harper. Yes. I just wanted to remind everyone that 
lawyers are people too.
    Mr. Brady. What kind of people?
    Ms. Lofgren. You are surrounded by them.
    The Chairman. All right, gentlemen.
    Any other Member?
    Okay. If not, I move that the Committee favorably report 
the bill to the House. The question is on the motion.
    All the Members that are in favor of the motion, signify by 
saying aye.
    Opposed, say nay.
    In the opinion of the Chair, the ayes have it, the ayes 
have it. The motion is agreed to. Without objection, the motion 
to reconsider is laid upon the table.
    I would ask unanimous consent that the staff be authorized 
to make technical and conforming changes to the measure the 
Committee just considered.
    Without objection, so ordered.
    And this concludes today's markup. Without objection, this 
part of the meeting is adjourned, and we will have the Chief 
come in and start with our hearing.
    [Whereupon, at 11:12 a.m., the committee was adjourned.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
